                 NATIONAL ENDOWMENT FOR THE ARTS

               OFFICE OF INSPECTOR GENERAL



             LIMITED SCOPE AUDIT REPORT

                                    ON SELECTED
                                   NEA GRANTS TO

         MARYLAND STATE ARTS COUNCIL
                                       Baltimore, MD

                               REPORT NO. LS-11-02

                                        July 25, 2011




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public. Furthermore, information contained in
this report should not be used for purposes other than those intended without prior consultation with
the NEA Office of Inspector General regarding its applicability.
                                     INTRODUCTION

BACKGROUND
The Maryland State Arts Council (MSAC) is an agency of the State of Maryland, under the
authority of the Department of Business and Economic Development, Division of Tourism, Film
and the Arts. MSAC was established in 1967, the purpose of the MSAC has been “to create a
nurturing climate for the arts in the State.” MSAC awards grants to not-for-profit, tax-exempt
organizations for ongoing arts programming and arts projects. MSAC awards grants to
individual artists, and provides technical and advisory assistance to individuals and groups.
MSAC also carries out programs of its own to enhance the cultural life of the residents of
Maryland.

OBJECTIVE, SCOPE AND METHODOLOGY
Limited scope audits involve a limited scope review of financial and non-financial information
of grant recipients to ensure validity and accuracy of reported information, and compliance with
state and federal requirements. The objective of this limited scope audit was to determine
whether:

    •   The grantee fulfilled the financial and compliance requirements as set forth in the grant
        awards;
    •   The total project costs claimed under the grants were reasonable, allocable and
        allowable;
    •   The required match was met on National Endowment for the Arts (NEA) grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2007), issued
by the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. The
“Standards” require that we obtain sufficient, competent, and relevant evidence to afford a
reasonable basis for our findings and conclusions. We reviewed the Council’s system of internal
control and judgmentally selected a sample of transactions for testing from each of the grants
reviewed. In addition, we evaluated the recipient’s compliance with the U.S. Office of
Management and Budget (OMB) and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to fund arts
projects and activities which preserve jobs in the nonprofit arts sector threatened by declines in
philanthropic and other support during the current economic downturn. Consistent with the
language in the Act, eligible projects are generally limited to salary support and fees for artists or
contracted personnel. Forty percent of such funds were distributed to State arts agencies and
regional arts organizations and 60 percent of the funds were competitively awarded to nonprofit
organizations that met the eligibility criteria established for this program. For organizations
eligible to subgrant, such as State arts agencies, funds may also be used to cover the cost of
implementing the subgranting program.

                                                                                                     1
During the period under review, MSAC had seven NEA grants active with awards totaling
$3,752,200. However, due to time constraints our audit was limited to six grants in which NEA
funds had been drawn down and costs had been reported. The NEA is the federal oversight
agency for the MSAC.

PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any audit
reports on Federal grants awarded to the MSAC. However, the MSAC was included in the State
of Maryland’s OMB Circular A-133 audit for the year ended June 30, 2008. There were no
findings indicated in the State’s A-133 audit report that were applicable to the MSAC. The
State’s financial statements were audited by Abrams, Foster, Nole & Williams, P.A., an
independent public accounting firm, for the year ended June 30, 2008. The independent audit
resulted in an unqualified (clean) opinion on the financial statements.

                                 RESULTS OF AUDIT

MSAC’s financial management system is administered in conjunction with the State of
Maryland. Our audit concluded that MSAC complied with the financial management system and
recordkeeping requirements established by OMB and NEA for its Recovery Act funds under
Grant No. 09-6188-2124. However, MSAC did not have an adequate financial management
system for five of the six grants tested. The review of the documentation provided, indicated that
MSAC’s financial management system did not track grant costs separately, as required by NEA
and OMB. Therefore, we were unable to determine actual expenditures or if the match was met
for each grant. We are questioning the reported total outlays of $58,400,208 under the selected
grants. As a result, a potential refund of $2,587,559 is possible under five of the six grants (See
Appendix I). We also found that the MSAC did not maintain the required personnel activity
reports, resulting in questioned costs for salaries and fringe benefits. In addition, MSAC did not
have a completed Section 504 self-evaluation on file. Details of our audit findings are presented
in the following narrative.


RECOVERY ACT AWARD
MSAC received $318,600 in Recovery Act funds. MSAC’s Recovery Act grant was used to
support projects and activities that preserve jobs in the arts. MSAC complied with the financial
management system and recordkeeping requirements established by OMB and NEA, such as
maintaining subrecipients listing, submitting quarterly reports timely and separately identifying
Recovery Act funds in its financial management system. MSAC did not charge salary
expenditures to this award.




                                                                                                    2
FINANCIAL MANAGEMENT
Financial Ledgers. MSAC’s financial management system did not track grant costs separately.
MSAC reconciles by reviewing the balance of prior years and extracting the amount from the
current year and then allocating costs to the components. Therefore, we were unable to
determine from the documentation provided if the matching requirement was met for each grant.
For grant numbers 05-6100-2014 and 06-6100-2017, a one-to-one match was required for each
component separately. For grant number 06-5500-7126, a one-to-one match was required for the
total award. For grant numbers 07-6100-2031 and 08-6100-2053, a one-to-one match was
required on the overall grant; however, the Arts Education component was to be matched by
funds at least equal to the amount awarded for that component.

As a result, we were unable to identify expenditures specific to each grant and therefore we are
questioning the reported costs of $58,400,208 for five of the six grants audited (See Appendix I).
The NEA’s General Terms and Conditions for Grants and Cooperative Agreements to
Organizations (General Terms) has financial requirements or refers to the NEA OIG Financial
Management Guide for State & Local Governments 1, which NEA provides to each applicable
grantee. The General Terms and the Guide state in part:

    Recipients must have accounting structures that provide accurate and complete information about
    all financial transactions related to each Federally-supported project.

The Guide further recommends that the “arts agencies maintain their own set of books and
ledgers even though the state or local government accounting office may be handling the fiscal
transactions.”

We are recommending that MSAC develop written policies and implement a system to track
each grant award’s transactions separately. To support the questioned costs reported on the
Financial Status Report, (see Appendix I) MSAC should provide additional documentation, such
as general or supplementary ledgers with detailed expenditures for each grant and component, if
required, separately. Based on our review of the documentation provided, we will determine if
any refund is due to the NEA. Without additional documentation, the potential refund is
$2,587,559 under these grants.

Subsequent to the audit, MSAC submitted additional documentation addressing this finding;
however, a management decision cannot be made until the OIG completes its review of the
documentation.

Personnel Activity Reports. The MSAC did not maintain personnel activity (time and effort)
reports. At the time of the award, personnel activity reports were required for all employees
whose salaries and fringe benefits are charged, in whole or in part, to either the award or the
matching funds if the award is $50,000 or more. This requirement is mandated by OMB and is


1
 NEA OIG Financial Management Guide for State & Local Governments can be found at
http://www.arts.gov/about/OIG /FMGSL.pdf


                                                                                                      3
detailed in NEA’s General Terms. A sample personnel activity report is also provided in the
General Terms, which states in part:

   For every employee whose salary is charged to an NEA grant, as a whole or in part, personnel activity
   reports must be maintained to account for all compensated time spent on other activities.

As a result of not maintaining personnel activity reports, we are questioning salaries and fringe
benefits. However, the salaries and fringe benefits total cost is included in the total questioned
cost under the Financial Ledgers section. Based on our review of the documentation provided,
we will determine if any refund is due to the NEA.

We are recommending that MSAC develop written policies and implement procedures to ensure
that individual personnel activity reports are maintained for employees whose salaries are
charged, in whole or in part, to future grant awards that are $50,000 or more.

Subsequent to the audit, MSAC submitted additional documentation addressing this finding;
however, a management decision cannot be made until the OIG completes its review of the
documentation.


SECTION 504 SELF-EVALUATION
The MSAC did not have the required Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” A Section
504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs.

Subsequent to our audit, MSAC provided us with a completed Section 504 Self-Evaluation
Workbook. Therefore, no additional action is required on this finding.


EXIT CONFERENCE
An exit conference was held with the MSAC’s officials on March 31, 2010. Subsequent to our
site visit, a telephone exit conference was held with the MSAC officials on April 7, 2011.
MSAC officials concurred with our findings and recommendations.


                                                                                                           4
                             RECOMMENDATIONS
We recommend that the MSAC:

   1. Develop written policies and implement a system to track each grant award separately.
      The system should include tracking expenditures by component, if required by the grant
      award.

   2. Provide additional documentation to support the questioned costs (See Appendix I)
      reported on the Final Financial Status Report. Based on our review of the documentation
      provided, we will determine if any refund is due to the NEA. Without additional
      documentation, the potential refund is $2,587,559 under these grants. (Appendix I)

   3. Develop written policies and implement procedures to ensure that individual personnel
      activity reports are maintained for employees whose salaries are charged, in whole or in
      part, to future grant awards that are $50,000 or more.




                                                                                                 5
                                                                                                                                                        Appendix I
                                                      MARYLAND STATE ARTS COUNCIL
                                             SCHEDULE OF GRANTS WITH QUESTIONED COSTS
     Grant                                                     Reported          Questioned         Potential
    Amount       Grant Number          Grant Period             Costs              Costs6            Refund                 Project Description


     $581,200     05-6100-2014      07/01/05 – 12/31/07         $11,984,204       $11,984,204         $565,620 2   To support Partnership Agreement.


     $624,300     06-6100-2017      07/01/06 – 06/30/08         $15,208,132       $15,208,132          $624,300    To support Partnership Agreement activities.


      $25,000     06-5500-7126      07/01/06 – 01/31/08             $92,530            $92,530          $25,000    To support the sixth year of Maryland Traditions.


     $638,800     07-6100-2031      07/01/07 – 12/31/08         $15,965,501       $15,965,501          $638,800    To support Partnership Agreement activities.


     $759,200    08-6100-2053 3     07/01/08 – 06/30/10         $15,149,841       $15,149,841          $733,839    To support Partnership Agreement activities.

     $318,600    09-6188-2124 4     04/01/09 – 06/30/10            $116,800                                        To support arts projects and activities which preserve
                                                                                                                   jobs in the nonprofit arts sector threatened by declines in
                                                                                                                   philanthropic and other support during the current
                                                                                                                   economic downtown.

     $805,100     09-6100-2043 5    07/01/09 – 06/30/10          $8,270,616                                        To support Partnership Agreement activities.

    $3,752,200                                                  $66,787,624       $58,400,208        $2,587,559




2
  05-6100-2014 – De-obligated $15,580.
3
  08-6100-2053 - Grant was open during audit, total reported costs is based on Request for Advance or Reimbursement as of 11/03/09.
4
  09-6188-2124 – Grant was open during audit, total reported costs is based on Request for Advance or Reimbursement as of 11/03/09.
5
  09-6100-2043 – Grant not audited because of time restrictions. Total Reported Costs is from Request for Advance or Reimbursement as of 11/03/09.
6
  Questioned costs are equivalent to total outlays reported on MSAC final Financial Status Report.
                                                                                                                                                                        1
